APPENDIX

APPENDIX 1
IN THE U.S. COURT OF APPEALS
FOR THE NINTH CIRCUIT

No. 18-17217
UNITED STATES OF AMERICA,
Plaintiff/Appellee,
versus
MELBA L. FORD,
Defendant/Appellant,
ORDER
(August 28, 2019)
Before: M. SMITH and BENNETT, Circuit
Judges
Appellant's motion for appointment of standby
counsel (Docket Entry No. 18) is denied. No motions
for reconsideration, clarification, or modification of
this denial shall be filed or entertained.
Appellant's motion to stay briefing in this court
pending disposition of her application to the

Supreme Court of the Unites States (Docket Entry
No. 15) is denied.
Appellant's motion for leave to exceed the page
limitation for the opening brief (Docket Entry No. 16)
is denied as unnecessary. The Clerk shall file the
opening brief submitted on July 26, 2019 (Docket
Entry No. 17).
The answering brief is due September 30, 2019.
The optional reply brief is due with 21 days after
service of the answering brief.

APPENDIX 2
The Court is requested to judicially notice the
following cases and results:
Victims of the IRS/DoJ record falsification
program have filed over TEN fully-paid suits
to enjoin the falsification of IRS' all-controlling,
digital Individual Master File records (and
paper certifications derived therefrom) to
make it appear IRS prepared substitute
income tax returns on claimed dates, when no
such thing happened or exists; and notice that
TEN times those suits were dismissed after
district court judges fabricated that victims
supposedly were seeking to enjoin IRS from
preparing substitute income tax returns,
when in fact victims complained instead that
no such thing exists 1, and notice that
The fully-paid cases dismissed on the basis of that fraud
include:
- D.C.D.C. 14-CV-0471, Ellis v. Commissioner, et al
- D.C.D.C. 15-CV-2039, DePolo v. Ciraolo-Klepper, et al.,
- D.C.D.C. 16-CV-2089, Norma DeOrio v. Ciraolo-Klepper,
et al,
- D.C.D.C. 16-CV-1053, Crumpacker v. Ciraolo-Klepper, et
al,
- D.C.D.C. 16-CV-1768, Podgorny v. Ciraolo-Klepper, et al,
- D.C.D.C. 16-CV-1458, McGarvin v. McMonagle, et al,
- D.C.D.C. 16-CV-0420, Dwaileebe v. Martineau, et al,
- E.D.C.A. 17-CV-0034, Ford v. Ciraolo-Klepper, et al, my
case
- D.C.D.C. 16-CV-2313, Ellis, et al, v. Jackson, et al, and
- D.C.D.C. 17-CV-0022, Stanley, et al, v. Lynch, et al.
1

EIGHT times victims sought appellate relief
from the fraud they experienced in the district
courts;2 and notice that
EIGHT times their fully-paid appeals were
dismissed after circuit clerks issued unsigned,
unpublished summary "orders" which
addressed no issue raised on appeal, left
unmentioned the applicable standard of
review (de novo), but used, instead, the wrong
standard (clear error), while holding that
victims had supposedly "not proven the
district judges wrong" concerning issues the
Circuit authors failed to identify; and notice
that
Victims of the institutionalized IRS record
falsification program have, over 13 times,
sought relief in THIS Court from both the
underlying executive branch record
falsification program, and from the overt
support thereof provided by lower court
judicial branch officers, all to no avail.3
Those include:
- D.C. COA 15-5035, Ellis v. Commissioner,
- D.C. COA 16-5233, McNeil v. Commissioner,
- D.C. COA 16-5308, DePolo v. Ciraolo-Klepper,
- D.C. COA 17-5054, Crumpacker v. Ciraolo-Klepper,
- D.C. COA 17-5055, McGarvin v. Ryan 0. McMonagle,
- D.C. COA 17-5056, Podgorny v. Ciraolo-Klepper,
- D.C. COA 17-5057, DeOrio v. Ciraolo-Klepper and
- D.C. COA 17-5058, Dwaileebe v. Martineau.
3 All petitions/applications concerning the executive
branch scheme to falsify IRS records to justify initiating
2

Again, restated, I request the Court notice
that the core issue raised by victims of IRS'
institutionalized falsification of federal records,
used to initiate civil forfeitures and criminal
cases against "non-filers", has never been
adjudicated in any United States Court.

civil and criminal prosecutions, have been denied without
comment by this Court. Those include:
- 16-1311, Robert McNeil v. Commissioner, et al.,
- Unassgd, Michael Ellis - Petition for Writ of Mandamus,
- 17-1561, In Re Michael Ellis, et al.
- 17-1562, In Re Harold Stanley,
- 17-1563, In Re Melba Ford,
- 17-1715, In Re Robert McNeil and Michael Ellis,
- Unassgd, Robert McNeil - Petition for Stay / Mandamus,
- 18A1104, Melba Ford v. United States,
- 18-1402, Harold Stanley, et al. v. USDC DC,
- Unassgd, Melba Ford — Emergency Appl. for Stay,
- 19-206,
In Re Melba Ford,
- 19A297, Robert McNeil, v. G. Michael Harvey, and
- Unassgd, Melba Ford — Appl. for Appt. of Counsel

